No. 20-

 

In the Supreme Court of the United States

 

Unity HealthCare,
Applicant,
Vv.

Alex M. Azar, II, as Secretary of Department of Health and
Human Services,

Respondent.

CERTIFICATE OF SERVICE

I hereby certify that 1 am a member in good standing of the bar of this Court and that on
this 31st day of May, 2019, I caused a copy of Unity HealthCare's Application for an Extension of
Time Within Which to File a Petition for a Writ of Certiorari to the United States Court of Appeals
for the Eighth Circuit to be served on the following persons by FedEx within three calendar days

from May 31, 2019, and through email at the below email addresses:

Hon. Alex M. Azar, II, Secretary
Department of Health and Human Services
200 Independence Avenue, SW
Washington, DC 20201
Secretary@HHS.gov
Hon. Noel J. Francisco

Solicitor General of the United States
Room 5616

Department of Justice

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@usdoj.gov

All parties required to be served have been served.

bx

than Biran
